1
JURISDICTION
STATE OF NEW YORK COURT OF APPEALS
Decided and Entered on the
second day of April, 2020
Present, Hon. Janet DiFiore, Chief Judge, Presiding.
Mo. No. 2020-25
The Church of Jesus Christ of Latter
-Day Saints, Servant, Xiu Jian Sun, &c.,
Appellant,
v.
Charles F. Sanders, et al.,
Respondents,
Demidchik Law Firm, P.L.L.C., et al.,
Defendants.
The Church of Jesus Christ of Latter- Day Saints,
Servant, Xiu Jian Sun, &c.,
Appellant,
v.
Oren L. Zeve,
Respondent,

Appellant having appealed to the Court of Appeals
and respondents having moved for sanctions &c. in the
above cause;
Upon the papers filed and due deliberation, it is

2

ORDERED, on the Court’s own motion, that the
appeal is dismissed, without costs, upon the ground
that no appeal lies as of right from the unanimous
order of the Appellate Division absent the direct
involvement of a substantial constitutional question;
and it is further
ORDERED, that the motion for sanctions &c. is
denied.
Heather Davis
Heather Davis
Deputy Clerk

A1
STATE OF NEW YORK COURT OF APPEALS
John P. Asiello
Chief Clerk and
Legal Counsel to the Court
Clerk’s Office
20 Eagle Street
Albany, New York 12207-1095
November 4, 2019
Mr. Xiu Jian Sun
54-25 153rd Street
Flushing, NY 11355
Re: Sun v Stephen: Sun v Zeve
Dear Mr. Xiu Jian Sun:
The Court has received your preliminary appeal
statement and will examine its subject matter
jurisdiction with respect to whether on any
jurisdictional basis exists for an appeal as of right. This
examination of jurisdiction shall not preclude the Court
from addressing any jurisdictional concerns in the
future.
You should file within ten days after this letter's
date your comments in letter format justifying the
retention of subject matter jurisdiction. By copy of the
letter, your adversary is likewise afforded the
opportunity to comment in letter format on the Court's

A2
subject matter jurisdiction within the same ten-day
period after this letter's date. All letters shall be filed
with proof of service of one copy of the letter on each
party.
If applicable, the disclosure statement required to
be filed by corporations and other business entities
pursuant to section 500. 1(f) of the Court of Appeals
Rules of Practice shall be filed with the written
submissions discussed above.
The times within which briefs on the merits must
be filed are held in abeyance during the pendency of
this jurisdictional inquiry. If this inquiry is terminated
by the Court, the Clerk will notify counsel in writing
and set a schedule for the perfecting of the appeal. This
communication is without prejudice to any motion any
party may wish to make.
If you have any questions regarding this letter,
you may contact either Margaret N. Wood at
518-455-7702 or Edward J. Ohanian at 518-455-7701.
Very truly yours,
Heather Davis
Heather Davis
Deputy Clerk
JPA/MNW/ni
cc: David Lawrence, III, Esq
Oren L. Zeve, Esq
Stephen E. Mullkoff, Esq

B1
SUPREME COURT, APPELLATE DIVISION
FIRST DEPARTMENT
OCTOBER 1. 2019
THE COURT ANNOUNCES THE FOLLOWING
DECISIONS:
Richter, J.P., Gische, Kapnick, Kern, Moulton, JJ.
99449945
Church of Jesus Christ of Latter-Day
Saints, Servant: Xiu Jian Sun, the
Index 101013/17
Spiritual Adam,
100603/17
Plaintiff-Appellant,
-againstCharles F. Sanders, et al.,
Defendants-Respondents,
Demidchik Law Firm, P.L.L.C., et al.,
Defendants.
Church of Jesus Christ of Latter-Day Saints,
Servant: Xiu Jian Sun, the Spiritual Adam,
Plaintiff-Appellant,
-againstOren L. Zeve,
Defendant-Respondent.

Xiu Jian Sun, appellant pro se.
Letitia James, Attorney General, New York (Oren L

)

B2
Zeve of counsel), for Charles F. Sanders, Eric T.
Schneiderman, D. Stan O’Loughlin and David
Lawrence, III, respondents, and (David Lawrence III of
counsel), for Oren L. Zeve, respondent.

Order, Supreme Court, New York County (Barbara
Jaffe, J.), entered February 28, 2018, which granted
defendant Oren L. Zeve’s motion to dismiss the
complaint, unanimously affirmed, without costs.
Order, Supreme Court, New York County (Nancy M.
Bannon, J.), entered February 26, 2018, which granted
defendants’ motion to dismiss the complaint,
unanimously affirmed, without costs.
Construing the pleadings liberally, accepting all
the facts alleged in the complaints to be true, and
according plaintiff the benefit of every possible
favorable inference (Leon v Martinez, 84 NY2d 83,
87-88 [1994]), there are simply no viable causes of
action against defendants that are discernible from
plaintiffs complaints.
THIS CONSTITUTES THE DECISION AND
ORDER OF THE SUPREME COURT, APPELLATE
DIVISION, FIRST DEPARTMENT.
ENTERED: OCTOBER 1, 2019
Susanna Rojas
CLERK

Cl
100603/2017 NOTICE OF APPEAL,
COPY FORWDED TO ADI
100603/2017 PT 12 SEQ 001
DECISION Order filed 04/23/2018

Page 7 of 10
Page 1 of 1

EA 2/27/18

SUPREME COURT OF THE STATE OF NEW
YORK NEW YORK COUNTY
PRESENT: HON. BARBARA JAFFE
Justice

PART 12

x

INDEX NO .100603/2017
MOTION DATE
The Church of Jesus Christ of
MOTION SEQ NO. 1
Latter - day saints, Servant:
XIU JIAN SUN,
DECISION AND ORDER
the spiritual Adam
Petitioner
FILED
-vFED 28 2018
OREN L. ZEVE
COUNTY CLERK OFFICE
Respondent
NEW YORK
x
Absent any dispute that plaintiff failed to serve
defendant with process according to CPLR 307 (2) or
308, and to the extent that plaintiff apparently intends
to sue plaintiff in his capacity as a Managing Assistant
Solicitor General with the New York State Office of the
Attorney General, defendant is absolutely immune
from such prosecution. In any event, the complaint sets

C2
forth no cognizable cause of action.
Accordingly, it is hereby
ORDERED, that defendant's motion to dismiss is
granted in its entirety; and it is further
ORDERED, that the complaint is dismissed and
the clerk is directed to enter judgment accordingly.
DATED: 2/23/2018
Barbara Jaffe

HON. BARBARA JAFFE, J.S.C.
HON. BARBARA JAFFE
[XI CASE DISPOSED
[X] GRANTED
[ ] SETTLE ORDER
APPLICATION
CHECK IF APPROPRIATE [ ] DO NOT POST
CHECK ONE

[ ] DENIED
[
[
[
[

]
]
]
]

NON-FINAL DISPOSITION
GRANTED IN ART
SUBMIT ORDER
FIDUCIARY APPOINTMENT

[ 1 OTHER
[ ] REFERENCE
Printed: 3/5/2018
Printed: 10/19/2018

C3
101013/2017 NOTICE OF APPEAL,
COPY FORWDED TO ADI

Page 8 of 11
PART 42

DG 2/26/18 E
SUPREME COURT OP THE STATE OP NEW
YORK NEW YORK COUNTY
RECEIVED
JAN 12 2018
PRESENT: Hon.
NYS
SUPREME
COURT
CIVIL
Nancy Bannon
GENERAL CLERK’S OFFICE
Justice
INDEX NO.101013/2017
MOTION DATE 9/28/2017
The Church of Jesus
Christ of Latter - day saints, MOTION SEQ NO. 001
Servant: XIU JIAN SUN,
DECISION AND ORDER
FILED
-vFED 26 2018
CHARLES SANDERS, et al
COUNTY CLERK OFFICE
NEW YORK
The following papers were read on the petition/
complaint
and
motion
to
dismiss
the
petition/complaint.
SEQ 001 Notice of Motion/Order to Show CauseAffirmation-Affidavit(s)-Exhibits-Memorandum of Law
No (s). 1____
Answering Affirmation(s)-Affidavit(s)-Exhibits—No (s).______
Replying Affirmation-Affidavit (s) - Exhibits- - No (s).______
SEQ 002 Notice of Motion/Order to Show CauseAffirmation-Affidavit(s)-Exhibits-Memorandum of Law

C4
No (s). 1____
In this action for unspecified relief, the plaintiff, in
effect, moves for unspecified injunctive relief (SEQ 001)
and the defendants move pursuant to CPLR 3211(a)(7)
to dismiss the complaint for failure to state a cause of
action (SEQ 002). The court grants the defendants'
motion and denies the plaintiffs request for rellief.
When assessing the adequacy of a complaint in the
context of a CPLR 3211(a)(7) motion to dismiss the
court's role is “to determine whether plaintiffs’
pleadings state a cause of action.” 511 W. 232nd
Owners Corn, v Jennifer Realty Co.. 98 NY2d 144,
151-152 (2002). In the context of a CPLR 3211(a)(7)
motion to dismiss made on the ground that New York
law does not recognize a cause of action, the inquiry is
whether the proponent, of the pleading has a cause of
action. See Davis v South Nassau Communities Hosp.,
26 NY3d 563,572 (2015).
To accomplish the task of determining whether
a complaint adequately states a cause of action,
the court must “liberally construe the complaint,”
accept the facts alleged in it as true, and accord the
plaintiff “the benefit of every possible favorable
inference.” Id. at 152; see Romanello v Intesa Sanpaolo.
S.D.A. 22 NY3d 881, 887 (2013); Simkin v Blank.
19 NY3d 46, 52 (2012); CPLR 3026). The motion must
be denied if from the pleadings' four corners factual
allegations are discerned which taken together
manifest any cause of action cognizable at law. “511
W, 232nd Owners Corp. v Jennifer Realty Co supra, at
152 (internal quotation marks omitted): see Romanello
v Intesa Sanpaolo. S.D.A. supra at 887; Leon v
Martinez. 84 NY2d 83, 87 (1994); Guggenhelmer v
Ginzburg. 43 NY2d 268 275 (1977). However, '"factual

C5
allegations... that consist of bare legal conclusions, or
that are inherently incredible . . . are not entitled’” • to
such a favorable inference. Mamoon v Dot Net Inc.. 135
AD3d 656, 658 (1st Dept 2016), quoting Leder v Spiegel.
31 AD 3d 266, 267 (1st Dept 2006), affd 9 N '3d 836
(2007); see Ullmann v Norma Kamall, Inc.. 207 AD2d
691,692 (1st Dept 1994).
The complaint here too vague and confusing to
have' apprised the defendants of the claims asserted
against them (see New Dimension Solutions. Inc, v
Spearhead Svs, Consultants (US’), Ltd.. 28 AD3d 260,
260 [1st Dept 2006]), consisting as it does of numerous
rambling, disjointed allegations, none of which; even if
read together and liberally construed, state a cause of
action against the defendants, Moreover, many of the
allegations against the defendants are inherently
incredible or unworthy of belief (see e.g. Reves v New
York Univ.. 305 AD2d 392, 393 (2nd Dept 2003}) such as
vague religious-sounding statements that seem to
request that soma divine intervention he visited upon
the defendants, See Victoria I. Enters, Inc v Charmer
Indus.. Inc. 63 AD3d 1698, 1698 (4* Dept 2009). Thus,
the complaint does not state a cause of action, and must
be dismissed.
Although the plaintiff does not expressly provide a
notice of motion along with the request for Judicial
intervention (RJI) that he filed, to the extent that any
specific request for relief may be inferred from the
statement on the RJI that the plaintiff seeks to
“prevent insult and unfair behavior,” the court, deems
the request to be for a preliminary Injunction or
restrain some unspecified conduct. To obtain a
preliminary injunction, a movant must demonstrate, by

